                                          June 25, 2007




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S EMERGENCY PREPAREDNESS
                            PROGRAM (OIG-07-A-13)


Attached is the Office of the Inspector General’s (OIG) report titled, Audit of NRC’s
Emergency Preparedness Program.

This report presents the results of the subject audit. Agency comments provided at the
exit conference on June 6, 2007, have been incorporated, as appropriate, into this
report. The agency did not provide formal comments.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915, or Beth Serepca at 415-5911.

Attachment: As stated
Electronic Distribution

Frank P. Gillespie, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Peter J. Rabideau, Acting Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
 and Administration and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
 and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
R. William Borchardt, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III I
Bruce S. Mallett, Regional Administrator, Region IV
                     AUDIT REPORT


             Audit of NRC’s Emergency Preparedness Program

                        OIG-07-A-13      June 25, 2007




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                         Audit of NRC’s Emergency Preparedness Program



I.   EXECUTIVE SUMMARY

         BACKGROUND

         Emergency Preparedness (EP) is one of the seven cornerstones of
         the Reactor Oversight Process, which is the Nuclear Regulatory
         Commission’s (NRC) primary mechanism for nuclear power plant
         oversight. The objective of the EP cornerstone is to ensure that
         licensees operating nuclear power plants are capable of taking
         adequate measures to protect public health and safety during a
         radiological emergency.

         NRC regulations require licensees to have comprehensive EP
         programs, which include dedicated emergency response facilities,
         systems, equipment, and staffing. Licensees must describe their
         programs in facility-specific plans that provide licensee staff with
         guidance for responding to a range of emergency situations. NRC
         inspectors assess the ability of licensees to execute specific
         elements of their EP plans such as coordination with offsite
         emergency response organizations during EP drills and exercises.
         Licensees conduct quarterly onsite EP drills, as well as biennial EP
         exercises that simulate emergencies and involve NRC as well as
         State and local authorities. During these exercises, the Federal
         Emergency Management Agency (FEMA) assesses State and local
         response organizations’ implementation of their emergency plans.

         PURPOSE

         The objectives of this audit were to evaluate:

         1) NRC’s efforts to ensure that nuclear power plant licensees have
            adequate EP plans and programs for security-based
            emergencies, and;

         2) NRC’s coordination with Federal, State, and local authorities to
            plan and prepare for security-based emergencies.

         RESULTS IN BRIEF

         With respect to the first objective, NRC is making a sufficient effort
         to ensure that nuclear power plant licensees have adequate EP
         plans and programs. However, in regard to the second objective,
         this audit found a weakness within the EP program. Specifically,
         NRC has not followed a consistent process for communicating its
         coordination role with State and local government authorities.



                                     i
                                    Audit of NRC’s Emergency Preparedness Program



    Weakness in NRC’s Coordination with State and Local
    Government Authorities

    In the event of radiological emergencies that occur at nuclear
    power plants, NRC is responsible for supporting State and local
    emergency management organizations and coordinating the
    Federal Government’s response under the National Response
    Plan. However, NRC has repeatedly demonstrated problems
    coordinating and communicating with State authorities during EP
    exercises. This weakness recurs because (1) NRC has not clearly
    defined and communicated its coordination role to State and local
    authorities, and (2) has not followed a consistent approach for
    working with the States during these exercises. Inadequate
    coordination and communication adversely affects NRC’s
    emergency operations with State agencies and could diminish the
    public’s confidence in NRC.

    RECOMMENDATIONS

    This report makes two recommendations to help NRC improve its
    emergency preparedness coordination with State agencies. These
    recommendations appear on page 10 of this report.
.
    AGENCY COMMENTS

    At an exit conference held on June 6, 2007, agency managers
    generally agreed with the audit findings and recommendations and
    provided comments concerning the draft audit report. We modified
    the report in response to these comments as we determined
    appropriate. NRC reviewed these modifications and opted not to
    submit formal written comments for the final version of this report.




                               ii
                                  Audit of NRC’s Emergency Preparedness Program



ABBREVIATIONS AND ACRONYMS

       DHS     Department of Homeland Security
       EP      Emergency Preparedness
       FEMA    Federal Emergency Management Agency
       FTE     full-time equivalent
       MD      Management Directive
       NSIR    Office of Nuclear Security and Incident Response
       NRC     U.S. Nuclear Regulatory Commission
       OIG     Office of the Inspector General
       RSLO    Regional State Liaison Officer




                            iii
                    Audit of NRC’s Emergency Preparedness Program




[Page intentionally left blank.]




               iv
                                                        Audit of NRC’s Emergency Preparedness Program



TABLE OF CONTENTS

    EXECUTIVE SUMMARY.............................................................................. i

    ABBREVIATIONS AND ACRONYMS .......................................................... iii

    I.      BACKGROUND ................................................................................... 1

    II.     PURPOSE............................................................................................ 4

    III.    FINDING

            WEAKNESS IN NRC’S COORDINATION WITH STATE AND LOCAL
            GOVERNMENT AUTHORITIES ................................................................... 5


    IV.     AGENCY COMMENTS ........................................................................ 11


    APPENDICIES

           A.   SCOPE AND METHODOLOGY ..................................................... 13

           B.   SELECTED REGIONAL STATE LIAISON OFFICER (RSLO)
                FUNCTIONS................................................................................... 15




                                                    v
                    Audit of NRC’s Emergency Preparedness Program




[Page intentionally left blank.]




               vi
                                           Audit of NRC’s Emergency Preparedness Program



I.    BACKGROUND

             Emergency Preparedness is one of the seven cornerstones of the
             Reactor Oversight Process, which is NRC’s primary mechanism for
             nuclear power plant oversight. The objective of the EP cornerstone
             is to ensure that licensees operating nuclear power plants are
             capable of taking adequate measures to protect public health and
             safety during a radiological emergency.




Figure 1: NRC’s Regulatory Framework

             NRC’s Office of Nuclear Security and Incident Response (NSIR)
             manages this cornerstone by developing emergency preparedness
             policies, regulations, programs, and guidelines for currently
             licensed nuclear reactors and potential new nuclear reactors. NSIR
             EP staff issue internal and external communications and conduct
             inspections, licensing reviews, and regulation and guidance
             reviews. They also interface and coordinate with internal and
             external stakeholders including other NRC offices, the public,
             industry, the international nuclear community, and Federal and
             State government agencies. In FY 2006, NSIR’s budget for
             preparedness and response activities was comprised of 85 full-
             time equivalent (FTE) staff and $1.018 million. This resource
             allocation included funding for 60 NRC Headquarters personnel,
             and 25 FTE



                                       1
                                                    Audit of NRC’s Emergency Preparedness Program



                at NRC Regional offices, including 2 FTE per regional office for
                conducting the portion of reactor safety inspections that addresses
                the EP cornerstone of the Reactor Oversight Process.

                NRC Emphasis on Emergency Preparedness

                Since the terrorist attacks of September 11, 2001, NRC has placed
                renewed emphasis on emergency planning and response, as
                evidenced by subsequent regulatory actions and participation in
                interagency initiatives. For example, NSIR staff:

                     Issued orders to operating reactors in October 2002 to
                      review and address enhancements to security and
                      emergency preparedness programs.

                     Issued generic communications to operating reactors in
                      2004 specific to security-related emergency preparedness
                      enhancement lessons learned.

                     Surveyed and provided information to nuclear power plant
                      licensees in 2005 to determine how licensees have
                      incorporated new security features into their emergency
                      plans and programs.

                     Reviewed existing EP regulations and guidance during 2006,
                      and identified potential enhancements, particularly in the
                      area of security.

                     Participated in comprehensive reviews of security and
                      emergency response capabilities around nuclear facilities.

                NRC and the Federal Emergency Management Agency (FEMA)1
                Oversight of Emergency Preparedness

                Both NRC and FEMA have roles in the emergency planning
                activities for nuclear power plants. NRC regulates the emergency
                planning activities within the physical boundaries of nuclear power
                plant facility perimeters. FEMA evaluates the emergency planning
                activities outside the physical boundaries of nuclear power plants.




1
  On March 1, 2003, the Federal Emergency Management Agency (FEMA) became part of the
Department of Homeland Security (DHS). FEMA's continuing mission within the new department
is to lead the effort to prepare the Nation for all hazards and effectively manage Federal response
and recovery efforts following any national incident.
                                                2
                                                 Audit of NRC’s Emergency Preparedness Program



               During biennial full-participation EP exercises, NRC evaluates
               licensees implementation of their emergency plans, while FEMA
               assesses State and local authorities’ abilities to carry out offsite
               emergency plans.




               Figure 2: NRC regulates the emergency planning activities within the
               physical boundaries of nuclear power plant facility perimeters.



                       NRC EP Oversight

               NRC regulations require licensees to have comprehensive onsite2
               EP programs, which include dedicated emergency response
               facilities, systems, equipment, and staffing. Licensees must
               describe their EP programs in facility-specific plans and procedures
               that provide licensee staff with guidance for responding to a range
               of emergency situations, including natural disasters, operational
               accidents, and terrorist attacks.3 In fulfilling NRC’s Reactor
               Oversight Process, NRC inspectors assess the ability of licensees
               to execute specific elements of their EP plans such as coordination
               with offsite emergency response organizations during EP drills and

2
   Onsite refers to emergency preparedness activities that occur within the perimeter of NRC
licensed facilities such as nuclear power plants.
3
  Emergency preparedness planning standards are contained in 10 CFR 50.47(b) and 10 CFR 50
Appendix E.
                                             3
                                                   Audit of NRC’s Emergency Preparedness Program



                exercises. Licensees conduct periodic onsite EP drills, as well as
                biennial EP exercises that involve NRC and State and local
                authorities. Biennial exercises are evaluated by the NRC and
                FEMA. These biennial exercises simulate incidents that typically
                escalate in seriousness to a “general emergency,” the highest-level
                emergency category for nuclear power plants.

                        FEMA EP Oversight

                FEMA oversees State and local authorities’ offsite4 emergency
                plans and programs, which are designed to protect communities
                surrounding nuclear power plants. FEMA formulates
                determinations regarding the adequacy of offsite emergency
                preparedness. To determine whether offsite plans and programs
                are adequate and can be implemented during an actual
                emergency, FEMA evaluates the offsite performance of State and
                local authorities during EP biennial exercises. A memorandum of
                understanding between FEMA and NRC provides for NRC review
                and feedback concerning FEMA EP-related determinations and for
                the two agencies’ collaboration in other areas of mutual interest.


II.     PURPOSE

                The audit objectives were to evaluate:

                1) NRC’s efforts to ensure that nuclear power plant licensees have
                   adequate EP plans and programs for security-based
                   emergencies.

                2) NRC’s coordination with Federal, State, and local authorities to
                   plan and prepare for security-based emergencies.

                See Appendix A for a description of the audit scope and
                methodology.




4
  Offsite refers to emergency preparedness activities that occur outside the parameters of NRC
licensed facilities.
                                               4
                                            Audit of NRC’s Emergency Preparedness Program



III.    FINDING

              In regard to the first objective, NRC has completed EP initiatives
              over the past several years, and additional EP management
              initiatives are underway that will further enhance the EP program.
              The audit team observed biennial exercises at four nuclear power
              plants, interviewed EP inspectors, and gathered training
              documentation and found that NRC fulfills its EP exercise
              inspection requirements by:

               Routinely assessing licensees using criteria in the Reactor
                Oversight Process (IMC 0308).

               Staffing EP inspections with a lead inspector who has
                completed the agency’s EP specialist training and supporting
                inspectors who have received specific EP training related to
                their inspection focus.

              NRC is making a sufficient effort to ensure that nuclear power plant
              licensees have adequate EP plans and programs. No weaknesses
              were found regarding the first objective during the EP exercises
              that OIG observed.

              In regard to the second objective, this audit found a weakness
              within the EP program. Specifically, NRC should improve its
              processes for communication of its coordination responsibilities
              with State and local government authorities during emergency
              preparedness exercises.

       Weakness in NRC’s Coordination with State and Local Government
       Authorities

              In the event of radiological emergencies that occur at nuclear
              power plants, NRC is responsible for supporting State and local
              emergency management organizations and coordinating the
              Federal Government’s response. However, NRC has repeatedly
              demonstrated problems coordinating with State authorities during
              EP exercises. The weakness in NRC’s coordination with State
              authorities recurs because (1) NRC has not followed a consistent
              approach for working with the States during these exercises and (2)
              has not clearly defined or communicated its coordination role.
              Inadequate coordination adversely affects NRC’s operations with
              State agencies during EP exercises and could diminish public
              confidence in NRC.




                                        5
                                                    Audit of NRC’s Emergency Preparedness Program



                The National Response Plan 5 is the Federal Government’s plan for
                how Federal agencies should coordinate efforts to manage specific
                types of emergencies. The National Response Plan assigns NRC
                responsibility as the coordinating agency for the Federal response
                to nuclear or radiological emergencies occurring at nuclear power
                plants under NRC jurisdiction. The coordinating agency role
                includes supporting State, local, and tribal authorities, which are
                primarily responsible for managing public health and safety in
                communities surrounding nuclear facilities in case of emergency.

                NRC’s internal guidance identifies the agency’s roles and
                responsibilities in accordance with the National Response Plan.
                The NRC Incident Response Plan reflects the agency’s policy for
                responding to emergencies involving NRC-regulated facilities, and
                specifically addresses coordination with external organizations. At
                the Federal level, NRC coordinates actions of other agencies such
                as DHS, the Food and Drug Administration, Department of Energy,
                and the Environmental Protection Agency, which are involved in
                response and recovery operations, and advises key
                decisionmakers such as the President and the Congress. At the
                non-Federal level, NRC provides technical assistance and
                coordinates Federal support upon the request of State, local, and
                tribal authorities.

                Management Directive and Handbook 8.2 (MD 8.2), “NRC Incident
                Response Program,” identifies procedures for carrying out the NRC
                Incident Response Plan and assigns the roles and responsibilities
                of NRC organizations involved in implementing the plan. For
                instance, MD 8.2 requires that:

                 NSIR develop, direct, and implement the NRC Incident
                  Response Plan, including outreach elements to Federal, State,
                  local, and tribal organizations.

                 The Office of State and Tribal Programs6 assists NSIR in
                  implementing the State outreach program to increase and
                  improve NRC's interactions with State authorities during
                  exercises and briefings. To support increased outreach efforts,
                  the Office of State and Tribal Programs provided each regional


5
  The National Response Plan addresses the objectives of the National Strategy for Homeland
Security; Homeland Security Act of 2002; and Homeland Security Presidential Directive-5
(HSPD-5), Management of Domestic Incidents, by establishing in writing a concerted national
effort to prevent terrorist attacks within the United States; reduce America’s vulnerability to
terrorism, major disasters, and other emergencies; and minimize the damage and recover from
attacks, major disasters, and other emergencies that occur.
6
  This office was merged with another office in October 2006 to create the Office of Federal and
State Materials and Environmental Management Programs.
                                                6
                                                     Audit of NRC’s Emergency Preparedness Program



                    office with FTE resources for its Regional State Liaison Officer7
                    function as part of the FY 2007 budget allotment. Appendix B
                    contains a chart that describes selected functions of the
                    Regional State Liaison Officer in each regional office.

                 Regional administrators support an outreach program to ensure
                  that licensees and State, local, and tribal organizations are
                  aware of the support that NRC and other Federal agencies can
                  provide during emergencies.

                Coordination Problems

                NRC repeatedly demonstrates coordination problems with State
                authorities during EP exercises. Despite acknowledging in past
                evaluations of agency exercise performance that NRC has
                communicated poorly during EP exercises, NRC headquarters staff
                during subsequent exercises have not taken adequate steps to
                change NRC’s methodology for its outreach and communications
                role with State authorities.

                For example, during a March 2004 EP exercise, NRC headquarters
                staff repeatedly contacted State authorities directly to obtain status
                updates. These interruptions occurred despite protests from State
                officials that they lacked time and staff to accommodate NRC’s
                information requests. After the exercise, State officials filed a
                complaint with DHS to document what they regarded as
                unnecessary NRC interference in their operations. NRC officials
                subsequently acknowledged the State officials’ concerns and
                recommended a review of existing NRC procedures to determine
                whether revisions were appropriate. NRC officials also considered
                longer-term, programmatic initiatives to improve communications
                with State authorities, with specific focus on exercise preparation
                and outreach activities.

                In May 2005, NSIR developed a program plan to integrate EP
                outreach activities that had previously been carried out by various
                NRC offices. Nevertheless, coordination problems recurred during
                subsequent EP exercises.

                During an April 2006 EP exercise, a State official stated that a NRC
                headquarters executive caused problems by calling State
                executives at least five times to obtain status updates. DHS was
                grading the State’s EP performance during this exercise; therefore
                NRC’s calls were more of a nuisance than help to the State
                executives. Furthermore, State executives were preoccupied with

7
  Regional State Liaison Officers are assigned to NRC regional offices, and report to their
respective Regional Administrators.
                                                 7
                               Audit of NRC’s Emergency Preparedness Program



their emergency management duties and had neither time nor need
to speak directly with NRC headquarters staff. The State official
commented that NRC’s Regional State Liaison Officer observed
that NRC’s actions were disruptive and attempted to remedy the
situation by advising the headquarters staff to direct
communications through him.

NRC noted in its evaluation of this EP exercise that the NRC
headquarters executives encountered internal difficulties when
facilitating communications with key State decisionmakers and
attributed these problems to limited participation by senior State
executives. NRC’s assessment of this exercise recommended that
agency staff evaluate the means for improving interaction with
States during EP exercises, but did not evaluate reasons why past
corrective actions in this area had not been effective to remedy
known problems.

More recently, NRC commented in its after action evaluation of a
September 2006 exercise, that NRC headquarters executives
performed a cumbersome change in authority, which impacted the
overall executive team performance. This resulted in:

 State officials were kept waiting on the telephone for
  approximately 23 minutes while the incoming executive team
  director was briefed.

 The licensee was kept waiting during a prescheduled nonsecure
  video teleconference.

As a result, State officials were distracted from completing work
related to the exercise. A DHS letter to NRC expressed concern
over the quality and timing of NRC Headquarters actions taken
during this exercise when not needed. NRC’s assessment of the
exercise acknowledges that headquarters coordination problems
compromised communication with State officials.

To further assess NRC’s communication and coordination with
State governments in the area of EP, OIG surveyed 43 State
emergency management officials. Among the 31 officials who
responded to this survey, 27 indicated that they had participated in
EP exercises with NRC. Of the 27 State officials, 9 described
communication problems that occurred during the 3 exercises
previously discussed. Concerns among this group included the
adequacy of pre-exercise coordination with NRC headquarters
staff, as well as the timing and appropriateness of NRC
headquarters’ communications. Several of these respondents
acknowledged that NRC staff had met with State officials following
the exercises to address State concerns.
                           8
                                Audit of NRC’s Emergency Preparedness Program




NRC Roles Not Consistent or Defined

The weakness in NRC’s coordination with State authorities recurs
because NRC has not followed a consistent approach for working
with State officials to plan and conduct EP exercises. Furthermore,
NSIR has not clearly defined or communicated NRC’s emergency
response roles and responsibilities to State officials in its EP
outreach efforts.

Inconsistencies occur regarding NRC’s interactions with State and
local officials, particularly in the areas of advance planning and
involvement in exercises. NRC Regional State Liaison Officers
interact regularly with State and local officials within their respective
regions, yet interaction between headquarters-based NRC staff and
State and local officials is inconsistent. Also, while NRC Regional
State Liaison Officers’ specific duties vary across the four NRC
regions, all play an EP outreach role, such as representing NRC at
emergency planning conferences involving State and Federal
Government officials. During EP exercises, however, a single
agency position has not been identified to serve as the primary
interface between their State government counterparts and NRC
headquarters. In addition, NRC does not always conduct advance
or consistent preparation to clarify roles and responsibilities of the
various organizations involved in EP exercises. Lastly, the scope
of NRC’s participation in EP exercises varies; sometimes agency
staff are observers, while on other occasions, they are actively
engaged as role players in the exercise scenarios.

Senior NSIR officials recognize that the National Response Plan
and NRC’s implementing guidance are unclear in stating NRC’s
mission as a Federal coordinating agency and therefore have
initiated several measures to define and communicate the agency’s
role with external stakeholders.

In January 2006, NSIR proposed tentative plans for updating
internal guidance, conducting tabletop exercises, and hosting
regional conferences designed to help NRC, Federal, and State
government officials better understand mutual EP roles and
responsibilities. These activities are to reflect expected changes in
a forthcoming revision of the National Response Plan.




                            9
                                Audit of NRC’s Emergency Preparedness Program



Impact of Coordination on Public Confidence

Inadequate coordination adversely affects NRC’s operations with
State agencies during EP exercises and could diminish public
confidence in NRC. Communication problems between NRC and
State emergency management counterparts compromise State
agency performance in EP exercises. Exercises typically simulate,
within a 6- to 8-hour period, incidents that would likely occur over
several days. Given these compressed timelines, State officials
operating with limited staff may lack time and personnel to resolve
communications problems or coordinate their activities with NRC.
Moreover, DHS evaluates State agency performance during EP
exercises, so State officials must focus their efforts on their primary
duties and demonstrate DHS evaluation objectives, which do not
include communications with NRC.

Ineffective communications also are reflected by comments made
by State officials surveyed by OIG. For example, three officials
surveyed complained that NRC had inappropriately asserted a
command role rather than a support role during exercises. Two
other officials surveyed said that they lacked an understanding of
NRC’s mission because NRC staff had not explained to them how
the agency could provide support. Overall, nearly half of all survey
respondents recommended that NRC increase staff interaction with
State agencies through activities such as regular drill and exercise
participation, site-visits, and regional conferences. These types of
outreach activities foster better understanding of NRC’s mission,
thereby improving public confidence in the agency.

Recommendations:

OIG recommends that the Executive Director for Operations:

1.     Identify, clarify in NRC policy, and communicate to internal
       and external stakeholders, NRC’s coordination role and
       responsibilities under the National Response Plan.

2.     Develop and implement a consistent approach for carrying
       out NRC’s coordination role and responsibilities in
       accordance with the National Response Plan.




                           10
                                        Audit of NRC’s Emergency Preparedness Program



IV.   AGENCY COMMENTS

         At an exit conference held on June 6, 2007, agency managers
         generally agreed with the audit findings and recommendations and
         provided comments concerning the draft audit report. We modified
         the report in response to these comment as we determined
         appropriate. NRC reviewed these modifications and opted not to
         submit formal written comments for the final version of this report.




                                   11
                   Audit of NRC’s Emergency Preparedness Program




[Page intentionally left blank.]




              12
                                                      Audit of NRC’s Emergency Preparedness Program


                                                                                       Appendix A
SCOPE AND METHODOLOGY

                  Auditors evaluated NRC’s EP program to determine the
                  effectiveness of the program since the EP program was integrated
                  with NSIR’s Incident Response Program in June 2004.

                  OIG audit team reviewed relevant internal agency criteria, such as
                  NRC’s inspection and training procedures, management directives
                  and Commission guidance. The OIG audit team also reviewed
                  relevant laws and regulations pertaining to emergency
                  preparedness.

                  Auditors interviewed NSIR to learn their roles and responsibilities
                  as they pertain to EP. Auditors also interviewed EP inspectors in
                  Regions I, II, III, and IV to assess their understanding of the EP
                  program and process to determine if their activities are conducted
                  in accordance with program requirements.

                  Auditors observed EP exercises at Columbia Generation Station,
                  Palisades Nuclear Power Plant, Pilgrim Nuclear Power Station, and
                  North Anna Nuclear Power Station and interviewed licensee EP
                  Managers at those locations. Auditors also observed an EP
                  exercise at the NRC Headquarters Operations Center.

                  To assess NRC’s interaction with State agencies in the area of EP,
                  OIG auditors analyzed relevant internal and external guidance,
                  analyzed internal documentation of the agency’s participation in EP
                  exercises, and interviewed agency officials responsible for external
                  outreach. In addition, auditors created a questionnaire and
                  distributed it by e-mail to 43 State emergency management
                  officials. These officials were identified as cognizant points of
                  contact by NRC Regional State Liaison Officers. OIG received
                  responses directly from, or on behalf of, 30 State officials from all
                  four NRC regions.8 As appropriate, OIG contacted respondents by
                  telephone to clarify remarks submitted in the questionnaire’s
                  narrative sections.

                  This work was conducted from September 2006 through March
                  2007, in accordance with generally accepted Government auditing
                  standards and included a review of management controls related to
                  audit objectives. The work was conducted by Beth Serepca, Team
                  Leader; Shyrl Coker, Audit Manager; Vicki Foster, Senior
                  Management Analyst; David Ditto, Senior Management Analyst;
                  and Paul Rades, Senior Management Analyst.


8
    Four respondents indicated that they had not participated in an EP exercise with NRC.
                                                 13
                   Audit of NRC’s Emergency Preparedness Program




[Page intentionally left blank.]




              14
                                                                       Audit of NRC’s Emergency Preparedness Program


                                                                                                           Appendix B

SELECTED REGIONAL STATE LIAISON OFFICER (RSLO) FUNCTIONS9
RSLO Function/Responsibility               Similarities Between the Four             Differences Between the Four Regions
                                           Regions

Frequent contacts with States to           Role consistent in all four regions       Wide variation in involvement/interest by the
provide information                                                                  States; thus, the time demands of this effort vary
                                                                                     considerably. Some Regions have more than
                                                                                     one RSLO to perform activities.

Responds to requests from staff and        Role consistent in all four regions       Level of effort varies considerably, with the most
management regarding State issues                                                    significant demands in Region I, followed by
and political inquiries; supports                                                    Region III
meetings before government officials

Serves as the Government Liaison           Role consistent in all four regions       Region I RSLO also is Protective Measures and
Manager during exercises and                                                         emergency response coordinator qualified; the
emergencies                                                                          Region IV RSLO has additional duties.

Attends regularly scheduled meetings in    No similarities                           Region I supports two separate, regularly
specific states - typically requested by                                             scheduled quarterly emergency management
the State                                                                            meetings plus two annual meetings on nuclear
                                                                                     plant status and issues and quarterly State
                                                                                     emergency management meetings

                                                                                     Region II does not have such regularly
                                                                                     scheduled meetings

                                                                                     Region III supports one regularly scheduled
                                                                                     quarterly meeting and one annual meeting

                                                                                     Region IV supports one regularly scheduled
                                                                                     quarterly meeting as well as one annual meeting

Participates as a FEMA evaluator for       Some similarities                         Region I covers three FEMA- Regions; RSLO
biennial exercises and reviews final                                                 covers 2-3 biennial exercises and serves as
FEMA exercise reports.                                                               FEMA evaluator when needed.

                                                                                     Region II covers two FEMA - Regions

                                                                                     Region III covers two FEMA - Regions; RSLO
                                                                                     covers 3-4 exercises per year

                                                                                     Region IV covers five FEMA - Regions; RSLO
                                                                                     covers 3-4 exercises per year.

Supports the coordinated scheduling of     Some similarities                         The Region I RSLO has a central role in
emergency exercises                                                                  planning this activity.

                                                                                     Regions II, III, and IV, FEMA has assumed the
                                                                                     lead for this activity and the RSLO has only a
                                                                                     supporting role

                                                                                     Region IV RSLO coordinates this activity for its
                                                                                     licensees, but RSLO remains in a support role.



            9
             Adapted from NRC memorandum dated October 13, 2006, Regional State Liaison Officer
            Benchmarking/Best Practices Initiative.


                                                                 15
